VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                       Department of 

                                                                      Veterans Affairs 


                                                                          Review of Alleged 

                                                                      System Duplication in the 

                                                                     Virtual Office of Acquisition 

                                                                    Software Development Project





                                                                                        September 18, 2013
                                                                                         12-02708-301
             ACRONYMS AND ABBREVIATIONS

eCMS         Electronic Contract Management System
IT           Information Technology
OALC         Office of Acquisition, Logistics, and Construction
OIG          Office of Inspector General
OIT          Office of Information and Technology
PMAS         Project Management Accountability System
TAC          Technology Acquisition Center
VA           Veterans Affairs
VOA          Virtual Office of Acquisition




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Review of Alleged
                    System Duplication in VA’s VOA
                    Software Development Project

Why We Did This Review                           Submitting a business case under PMAS
                                                 could have minimized duplication and
In February 2012, we received an                 maximized VA’s investment.            By
anonymous Hotline allegation that the            developing duplicative eCMS functionality,
Virtual Office of Acquisition (VOA)              VA potentially incurred unnecessary costs
software development project was not             of approximately $13 million.
managed under VA’s Project Management
Accountability System (PMAS) control and         What We Recommended
oversight. The complainant also alleged the
VOA project was unnecessary because VA           We recommended the Principal Executive
already owned a system that met 95 percent       Director for OALC implement controls to
of VOA’s requirements. We conducted this         ensure that all future software developments
review to assess the merits of the               fall under PMAS control and require the
allegations.                                     TAC to submit a business case justifying
                                                 how the costs associated with duplicative
What We Found                                    system requirements and future system
                                                 maintenance will be managed moving
We substantiated the allegation that the         forward.
VOA software development project was not
managed under PMAS.              Technology      Agency Comments
Acquisition Center (TAC) officials believed
that because the Office of Acquisition,          The Principal Executive Director for OALC
Logistics, and Construction (OALC) was           concurred with our recommendations and
managing VOA development, the project            provided acceptable corrective action plans.
did not need PMAS oversight provided by          However, he disagreed with our allegation
VA’s Office of Information and Technology        findings.      We now consider our
(OIT). As such, the software development         recommendations closed.
project was not centrally evaluated to ensure
it would support the best mix of projects to
minimize duplication and maximize VA’s
investment in information technology.

We partially substantiated the allegation that
VOA development was unnecessary. We
found VA owned the Electronic Contact                      LINDA A. HALLIDAY
Management System (eCMS) OALC’s                        Assistant Inspector General
mandatory contract management system,                   for Audits and Evaluations
which     VOA      functionality     partially
duplicated. The TAC did not develop a
business case, as required under PMAS.


                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Allegation 1  VOA Software Development Was Not Managed Under PMAS ........................2
 

                           Recommendation.................................................................................................3
 

    Allegation 2  The Need for VOA Software Was Questionable ................................................4
 

                           Recommendation.................................................................................................6
 

Appendix A                 Background .........................................................................................................7
 

Appendix B                 Scope and Methodology......................................................................................9 


Appendix C                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................10 


Appendix D                 Principal Executive Director for the Office of Acquisition, Logistics, 

                           and Construction Comments .............................................................................11 


Appendix E                 Office of Inspector General Contact and Staff Acknowledgments...................16 


Appendix F                 Report Distribution ...........................................................................................17 





                                                                                                                                                 ii
                        Review of Alleged System Duplication in VA’s VOA Software Development Project



                    INTRODUCTION
Objective           On February 6, 2012, the Office of Inspector General (OIG) received an
                    anonymous allegation that the Virtual Office of Acquisition (VOA) software
                    development project was not being managed under the Project Management
                    Accountability System (PMAS). The complainant also alleged the VOA
                    project was unnecessary because VA already owned a system that met
                    95 percent of VOA’s requirements. We conducted this review to assess the
                    merits of the allegations.

Background          VOA is a suite of electronic contracting applications designed to support
                    users with the procurement process. It is a Web-based portal that hosts a
                    variety of acquisition life-cycle applications needed to fill gaps in existing
                    business processes, facilitate customer development of requirements
                    packages, reduce acquisition life-cycle time, support complex and
                    high-dollar acquisitions, and improve the quality of procurements through
                    collaboration and oversight. VOA has been deployed and is in the
                    sustainment phase. Ongoing development is focused on enhancing system
                    capabilities.

                    The anonymous complainant alleged that VOA duplicated functionality of
                    the Electronic Contract Management System (eCMS)—VA’s enterprise
                    system of record for contract management. eCMS is a Web-based enterprise
                    contract writing and management system that supports contracting officers in
                    the contract acquisition process.         Information Letter 049-07-06,
                    June 15, 2007, implemented and mandated use of eCMS VA-wide. Further,
                    the Procurement Policy Memorandum, Mandatory Usage of VA’s Electronic
                    Contract Management System, June 15, 2012, clarified the Information
                    Letter and mandated eCMS use for managing all VA procurements valued
                    above the micro-purchase threshold of $3,000.

                    VA’s Office of Information Technology (OIT) developed PMAS—a project
                    management discipline—to increase the success rate of information
                    technology (IT) development projects at VA. OIT designed PMAS to reduce
                    risks; to ensure monitoring, controlling, and reporting; and to establish
                    accountability in system development. In June 2009, the Secretary of
                    Veterans Affairs mandated the use of PMAS for all IT development projects
                    VA-wide.

Other                    Appendix A provides background information.
Information
                         Appendix B provides details on our scope and methodology.
                         Appendix C provides details on potential monetary benefits.
                         Appendix D provides management comments on this report.



VA Office of Inspector General                                                                     1
                      Review of Alleged System Duplication in VA’s VOA Software Development Project



                    RESULTS AND RECOMMENDATIONS
Allegation 1        VOA Software Development Was Not Managed Under
                    PMAS

                    We substantiated the allegation that the VOA software development project
                    was not managed under PMAS. Technology Acquisition Center (TAC)
                    officials believed that because the Office of Acquisition, Logistics, and
                    Construction (OALC) was managing VOA development, the project did not
                    need PMAS oversight provided by VA’s Office of Information and
                    Technology (OIT). As such, the software development project was not
                    centrally evaluated to ensure it would support the best mix of projects to
                    minimize duplication and maximize VA’s investment in information
                    technology.

PMAS                OIT’s PMAS Guide states that all VA IT projects introducing new
Requirements        functionality or enhancing existing system capabilities are product delivery
                    projects. Consequently, all development projects and those infrastructure
                    projects that provide new capability fall under the management discipline of
                    PMAS. In June 2009, the Secretary of VA mandated the use of PMAS for
                    all VA IT development projects VA-wide. The Principal Deputy Assistant
                    Secretary also stated that TAC officials should have managed VOA under
                    PMAS because it provided new capability.

                    To clarify this issue, VA published VA Directive 6071, Project Management
                    Accountability System, on February 20, 2013. The directive requires the use
                    of PMAS for all IT development projects with total life-cycle costs greater
                    than $250,000, whether funded by the IT appropriation or any other
                    appropriation. According to OALC’s FY 2011-13 Initiative Operating Plan,
                    life cycle costs for VOA were estimated at $8 million for FY 2011 through
                    FY 2015.

PMAS Oversight      Despite these requirements, TAC officials told us that they believed the
Deemed              PMAS Guide allowed for exceptions by stating that OIT qualifying projects
Unnecessary         must follow PMAS procedures. TAC officials developed VOA using the
                    Supply Fund. The Supply Fund supports VA’s mission by the operation and
                    maintenance of a supply system, including procurement of supplies,
                    equipment, and personal services and repair and reclamation of used, spent,
                    or excess personal property. Using the Supply Fund, two contracts—dated
                    October 2009 and April 2012, and associated task orders—dated as recently
                    as May of 2013—were awarded for VOA development with a total contract
                    value of approximately $13 million. TAC officials further stated that
                    because OALC managed VOA development, it was not subject to PMAS.

Conclusion          Based on PMAS criteria and the direction of the VA Secretary, the reasons
                    TAC officials cited for not managing VOA development under PMAS were

VA Office of Inspector General                                                                   2
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


                    incorrect. By not managing VOA under PMAS, OIT officials could not fully
                    evaluate the feasibility, cost, and capabilities associated with modifying
                    eCMS to meet requirements TAC elected to fulfill through VOA. In
                    addition, the system was not subject to the disciplines that PMAS was
                    designed to provide—risk management, monitoring, oversight and control,
                    reporting, and accountability.

                    Recommendation
                    1.	 We recommended the Principal Executive Director for the Office of
                        Acquisition, Logistics, and Construction implement controls to ensure
                        the Virtual Office of Acquisition project and all future information
                        technology development fall within the control and oversight of the
                        Project Management Accountability System.

Management          The Principal Executive Director for OALC concurred with our
Comments            recommendation but not with our finding for Allegation 1. The Principal
                    Executive Director asserted that our characterization of PMAS as an
                    actionable framework for IT project management contradicted findings in
                    our prior report, Audit of VA’s Project Management Accountability System
                    Implementation, Report No. 10-03162-262, August 29, 2011. He also said
                    that the applicability of PMAS to non-IT funds was not clarified in PMAS
                    guidance until VOA development was nearing completion. It was OALC’s
                    position that at the time of initial development, VOA was not subject to
                    PMAS because the project was not paid for using IT funds. The Principal
                    Executive Director stated that with promulgation of the clarifying guidance,
                    OALC is now actively participating in the PMAS process.

OIG Response        We disagree with the Principal Executive Director’s comments and continue
                    in our position that all VA IT projects introducing new functionality have
                    been subject to the management discipline of PMAS since its inception,
                    regardless of how the projects were funded. VA did not publish VA
                    Directive 6071, Project Management Accountability System, until February
                    20, 2013. However, the Secretary of VA mandated the use of PMAS for all
                    VA IT development projects Department-wide in June 2009.

                    Further, our August 2011 report does not provide a basis for not using PMAS
                    to manage IT development projects. Rather, the report was intended to
                    provide an evaluation of PMAS effectiveness and offer recommendations for
                    strengthening its project management capabilities. Despite our differing
                    perspectives, we appreciate the Principal Executive Director’s concurrence
                    with our recommendation and find the corrective action plan acceptable. We
                    now consider this recommendation closed.




VA Office of Inspector General                                                                   3
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


Allegation 2        The Need for VOA Software Was Questionable

                    We partially substantiated the allegation that VOA development was
                    unnecessary. We found VA owned the Electronic Contract Management
                    System (eCMS) OALC’s mandatory contract management system, which
                    VOA functionality partially duplicated. The TAC did not develop a business
                    case as required under PMAS. Instead TAC officials briefed the Principal
                    Executive Director and subsequently included VOA in OALC's FY 2011-13
                    Initiative Operating Plan. Submitting a business case and following the
                    PMAS process could have minimized duplication and maximized VA’s
                    investment.     We determined that by developing duplicative eCMS
                    functionality, VA potentially incurred unnecessary costs of approximately
                    $13 million.

Duplication         Duplication exists between eCMS and VOA. For example:
Between VOA
and eCMS            	 The eCMS Vendor Portal and the VOA Proposal Dashboard provide
                       vendors with a similar vehicle for uploading their proposals. Further, in
                       both eCMS and VOA, officials can provide geographically disbursed
                       evaluation teams with access to the information they need to evaluate
                       acquisition proposals.

                    	 Both eCMS and VOA have modules where customers enter acquisition
                       requirements. The Planning Module for eCMS and the Customer
                       Acquisition Portal for VOA provide similar functionality. However, in
                       comparison with VOA, eCMS has limited capabilities related to
                       pre-award tracking and traceability, uploading documents, collecting data
                       elements required by TAC, and providing a vehicle for customers and
                       contracting officials to review and revise requirements documents.

                    	 The VOA Customer Acquisition Portal provides customers and
                       acquisition professionals with the ability to generate, capture, review,
                       revise, track, and manage acquisition requirement packages. Customers
                       and acquisition professionals have instant access to data and status on
                       each requirement package by logging onto this portal. TAC acquisition
                       professionals can also provide additional feedback to customers through
                       a requirement review tab on the portal. Officials at eCMS are currently
                       working to enhance the eCMS Planning Module to include some of these
                       features. They plan to deploy the enhanced module during the first
                       quarter of FY 2014.

                    	 The eCMS Vendor Portal and VOA’s Acquisition Task Order
                       Management System both support restricted solicitations for multiple
                       award indefinite delivery/indefinite quantity contracts and submission of
                       vendor responses. However, according to TAC officials, eCMS currently
                       does not provide all of the functionality they require. While both


VA Office of Inspector General                                                                   4
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


                        programs have the ability to post solicitations to select vendors, only
                        VOA’s Acquisition Task Order Management System provides vendors
                        and contracting officers with comprehensive information grouped by
                        indefinite delivery/indefinite quantity contracts.

                    We identified some VOA requirements that eCMS did not address. For
                    example, TAC developed the Major Initiative Tracker, a module of VOA, to
                    be the authoritative data source for tracking all acquisitions under VA’s
                    16 major initiatives. The Tracker provides VA’s senior leaders with
                    25 customized reports on major initiatives. Currently, eCMS lacks the
                    ability to track VA’s 16 major initiatives. The eCMS also does not have the
                    capability to allow users to group all contracts under major initiatives or to
                    view information on each initiative.

PMAS                If VOA had been managed under PMAS, VA could have determined if all of
Oversight           its functionality might have been included, or provided at a lower cost, by
Could Have          modifying eCMS to meet the mission need. This would have precluded
Avoided             pursuing a separate and duplicative VOA system at additional expense.
Duplication
                    Under PMAS, the business sponsor or customer identifies high-level project
                    requirements and makes the business case for a project to exist.

                    According to the PMAS Guide, OIT initially establishes its IT programs and
                    projects during the annual multi-year programming and budget formulation
                    process. OIT creates its Budget Operating Plan by working closely with the
                    administrations and staff offices to establish business and IT priorities. OIT
                    applies funding and staff resources to the projects from the highest to the
                    lowest priority in the Budget Operating Plan. Following this process allows
                    OIT, the administrations, and staff offices to ensure that VA’s portfolio of IT
                    projects provides the best mix of projects for minimizing duplication and
                    maximizing VA’s investment in IT.

Conclusion          We partially substantiated the allegation that VOA development was
                    unnecessary. VA owns eCMS, a VA Secretary-mandated system, which
                    VOA functionality duplicated.         Moving forward, VA is incurring
                    sustainment costs for two similar contract management systems.

                    Because VOA development was managed under OALC and independent
                    from PMAS, VA was unable to benefit from the role PMAS could play in
                    helping to identify business requirements and priorities and how best to meet
                    them through IT investments that minimize duplication. We determined VA
                    potentially incurred unnecessary costs of approximately $13 million by
                    independently developing VOA with duplicative eCMS functionality and by
                    not managing the effort under PMAS.




VA Office of Inspector General                                                                   5
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


                    Recommendation
                    2.	 We recommended the Principal Executive Director for the Office of
                        Acquisition, Logistics, and Construction ensure the Technology
                        Acquisition Center submits a business case to the Office of Information
                        and Technology justifying how the costs associated with duplicative
                        system requirements and future system maintenance will be managed
                        moving forward.

Management          The Principal Executive Director for OALC concurred with our
Comments            recommendation but not with our finding for Allegation 2. The Principal
                    Executive Director indicated that VOA and eCMS serve different purposes
                    and, as such, have different functionalities. In addition, he stated that while
                    some functions are duplicative, they were put into VOA to offset significant
                    weaknesses in eCMS. The Principal Executive Director nonetheless
                    indicated that OALC will comply with all PMAS policies. He concluded
                    that with VOA transitioning to sustainment, the system was moving beyond
                    the scope of PMAS, which focuses on new software development projects.
                    Further, the Principal Executive Director has commissioned a more thorough
                    review of the VOA to identify if opportunities exist to integrate its
                    capabilities into other existing systems.

OIG Response        We stand by our conclusion that had OALC managed VOA under PMAS,
                    VA would have been in a better position to determine whether it was more
                    advantageous to develop VOA separately, or modify existing eCMS
                    functionality. Further, in the absence of a business case, neither OALC nor
                    the OIG can clearly substantiate the need for VOA as a separate software
                    development initiative. Determining how best to meet VA requirements and
                    priorities, through an optimal mix of IT investments, is one of the critical
                    roles PMAS plays. Despite our differing viewpoints, we appreciate the
                    Principal Executive Director’s concurrence with our recommendation and
                    find the corrective action plan acceptable.         We now consider this
                    recommendation closed.




VA Office of Inspector General                                                                   6
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


Appendix A          Background

VOA                 VOA is a suite of electronic contracting applications designed to support the
                    procurement process. VOA is a Web-based portal that hosts a variety of
                    acquisition life-cycle applications developed to fill gaps in existing business
                    processes, facilitate customer development of requirements packages, reduce
                    acquisition life-cycle time, support complex and high-dollar acquisitions, and
                    improve the quality of procurements through collaboration and oversight.
                    The following VA organizations use VOA:

                    •	 Acquisition Service—Frederick, MD and Washington, DC
                    •	 Technology Acquisition Center—Eatontown, NJ and Austin, TX
                    •	 Strategic Acquisition Center—Fredericksburg, VA

eCMS                VA’s eCMS is a Web-based enterprise contract writing and management
                    system of record for contract management that contracting officers use to:

                    •	 Create solicitations and transmit electronic postings to the Federal
                       Business Opportunities Web site.
                    •	 Create contract and task order documents.
                    •	 Store solicitations, vendor responses, and contract and task order
                       documentation in a centralized electronic repository.

                    eCMS electronically centralizes VA’s contract management information and
                    official contract files to support oversight, accountability, and management
                    responsibilities for acquisition business processes across VA’s entire
                    acquisition life cycle. It also supports Federal Acquisition Regulation
                    requirements, including planning, pre-award, award, and post-award
                    requirements.

                    VA Information Letter Implementation and Mandated use of VA’s Electronic
                    Contract Management System (IL 049-07-06, June 15, 2007) implemented
                    and mandated the use of eCMS across VA. For those who have been trained
                    and received eCMS production documents, all actions pertaining to
                    procurements over $25,000 are required to be created and maintained within
                    eCMS, using the document generation feature and other capabilities
                    available within the system. All other actions in the amount of $25,000 and
                    above are required to be recorded in eCMS.               Procurement Policy
                    Memorandum, Mandatory Usage of VA’s Electronic Contract Management
                    System, June 15, 2012, clarified the Information Letter and mandated the use
                    of eCMS to manage all VA procurements valued above the micro-purchase
                    threshold of $3,000.

PMAS 
              OIT developed PMAS—a project management discipline—to increase the
                    success rate of IT development projects at VA. PMAS was designed to

VA Office of Inspector General                                                                   7
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


                    reduce risks; to ensure monitoring, controlling, and reporting; and to
                    establish accountability in system development. In June 2009, the Secretary
                    of VA mandated the use of PMAS for all VA IT development projects
                    VA-wide.




VA Office of Inspector General                                                                   8
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


Appendix B          Scope and Methodology

                    We conducted our review work from April 2012 to January 2013. To assess
                    whether TAC should have managed the development of VOA under PMAS,
                    we interviewed the Principal Deputy Assistant Secretary for the Office of
                    Information and Technology and senior TAC officials. In addition, we
                    reviewed VA guidance concerning the applicability of PMAS.

                    To evaluate whether TAC’s requirements for VOA already existed in eCMS,
                    we met with VA acquisition officials who provided us with a demonstration
                    of eCMS and its capabilities at the VA Acquisition Academy in Frederick,
                    MD. We received a similar demonstration of VOA and its capabilities from
                    TAC officials in Eatontown, NJ. We also interviewed both TAC and eCMS
                    officials concerning eCMS and VOA capabilities and reviewed additional
                    documentation such as software users’ manuals to identify areas of
                    duplication.

Data Reliability    We did not rely on computer-processed data to address our review objective.
                    Accordingly, we did not assess the reliability of computer-processed data.

Government          We conducted our review in accordance with the Council of Inspectors
Standards           General on Integrity and Efficiency’s Quality Standards for Inspection and
                    Evaluation.




VA Office of Inspector General                                                                   9
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


Appendix C          Potential Monetary Benefits in Accordance With
                    Inspector General Act Amendments


                                                                   Better Use      Questioned
                                             Explanation of        of Funds in      Costs in
                Recommendation
                                               Benefits            Millions of     Millions of
                                                                     Dollars        Dollars


                                      VA potentially incurred
                                      unnecessary costs by
                                      independently developing
                          2	          VOA with duplicative             $13              $0            

                                      eCMS functionality and
                                      by not managing the effort
                                      under PMAS.


                                                          Total        $13              $0


                    Note: The actual amount awarded for the VOA development effort was
                    $12,973,195.50, which we rounded to $13 million.




VA Office of Inspector General                                                                   10
                           Review of Alleged System Duplication in VA’s VOA Software Development Project


Appendix D               Principal Executive Director for the Office of
                         Acquisition, Logistics, and Construction Comments


               Department of
               Veterans Affairs
                                                                  Memorandum
       Date:	        August 30, 2013

       From:	        Principal Executive Director, Office of Acquisition, Logistics, and
                     Construction (003)

       Subj:	        Draft Report, Review of Management of the Virtual Office of Acquisition
                     Software Development Project, Project No. 2012-02708-R6-0161
                     (VAIQ 7385558)

         To:         Assistant Inspector General for Audits and Evaluations (52)
                1. 	 The Office of Acquisitions, Logistics, and Construction (OALC) appreciates the
                     opportunity to review the subject draft report. OALC does not concur with the
                     allegation findings and provides detailed comments in the attachment.


                2. 	 Generally, OALC has concerns with the information presented which
                     characterized PMAS as a mature, accepted, actionable framework. As
                     indicated in OIG report 10-03162-262, Audit of the Project Management
                     System Implementation, published August 29, 2011, at the time the Secretary
                     of VA announces VOA, PMAS was a “vision” rather than a fully developed
                     methodology for managing IT development projects. As the PMAS policy has
                     been formally promulgated, OALC has, and will continue, to actively participate
                     as required and as demonstrated by our current participation in the process.

                3.   OALC does, however, concur with the report’s resulting recommendations, and
                     provides the following responses.

                     Recommendation 1: We recommend the Principal Executive Director for the
                     Office of Acquisition, Logistics, and Construction implement controls to ensure
                     the Virtual Office of Acquisition project and all future information technology
                     development fall within the control and oversight of the Project Management
                     Accountability System.

                     OALC Response: Concur. As PMAS policy has been formally promulgated,
                     OALC has and will continue to actively participate in the PMAS process as
                     demonstrated by successful evaluation and approval to proceed of another
                     OALC IT development project (e.g., TRIRIGA, a commercial construction
                     project management software product). OALC believes that existing controls
                     are adequate.

                     OALC requests closure of this recommendation.




VA Office of Inspector General                                                                         11
                      Review of Alleged System Duplication in VA’s VOA Software Development Project




                Recommendation 2: We recommend the Principal Executive Director for the
                Office of Acquisition, Logistics, and Construction ensure the Technology
                Acquisition Center submits a business case to the Office of Information and
                Technology justifying how the costs associated with duplicative system
                requirements and future system maintenance will be managed moving forward.

                OALC Response: Concur. OALC has followed and will comply with all
                applicable PMAS policies. At this time, with VOA transitioning to sustainment,
                the system falls out of the scope of the PMAS framework, which focuses on
                new IT projects. OALC will continue to coordinate with OIT as required moving
                forward.

                OALC requests closure of this recommendation.

                Lastly, while OALC does not believe that the findings in the report regarding
                “duplicity” and “unnecessary costs” are substantiated, OALC takes these
                claims seriously. Although not recommended by the OIG, I have directed a
                more thorough review of the system to identify if viable opportunities exist to
                integrate VOA capabilities into other existing systems.

                Should you have questions regarding this submission, please contact Andrew
                Salunga at (202) 632-5337, or at andrew.salunga@va.gov.




                Attachment




VA Office of Inspector General                                                                    12
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


                                                                                      Attachment

OALC Comments on Findings of Allegations 1 and 2, OIG Draft Report, Review of
Management of the Virtual Office of Acquisition Software Development Project, Project
No. 2012-02708-R6-0161 (VAIQ 7385558)

Allegation 1: The VOA software development project was not managed under PMAS.

OIG Findings: The OIG findings for Allegation 1 indicated OIG believed that they
substantiated that VOA’s software development and the TAC’s management thereof, was not
managed under PMAS. OIG findings stated that “We substantiated the allegation that TAC
officials did not manage the VOA software development project under PMAS.” Further OIG
findings stated, “As such, the software development project was not centrally evaluated to ensure
it would support the best mix of projects to minimize duplication and maximize VA’s investment
in information technology.”

OALC Response: OALC does not-concur with the OIG assessment of those findings. OIG
supported their findings on the assertion that “In June 2009, the Secretary of VA mandated the
use of PMAS for all VA IT development projects VA-wide.” However, this contradicts the
findings, as stated in OIG’s report 10-03162-262, Audit of VA’s Project Management
Accountability System Implementation, dated Aug 2011: “When the Secretary of Veterans
Affairs announced PMAS on June 19, 2009, it was in the preliminary stages of development. It
was primarily the Assistant Secretary for Information and Technology’s vision rather than a fully
developed methodology for managing IT development projects.” Further, the OIG report
substantiated that OIT did not publish an initial implementation guide until March 29, 2010.

Based on OALC’s review of the PMAS Guide in place at the time that VOA was initiated and
discussion with Office of Information and Technology (OIT) PMAS subject matter experts, the
guide was silent with regards to management of IT projects using non-IT funds, in addition to
OIT’s practice to not accept non-IT funded actions under PMAS governance. The applicability
of PMAS to non-IT funded actions was not clarified until the release of the PMAS Guide
Version 4.0, dated November 7, 2012, at which point the development phase of VOA was
approaching completion. Further, OIT staff had indicated that currently the PMAS governance
structure for non-IT funded actions is only now being stood up and is not yet fully in place.
Based on the timeline of the PMAS policy implementation, 2 years after the VOA started, and
the fact that VOA is a non-IT funded project, it is OALC’s position that at the time of its initial
development, VOA was not subject to PMAS.

However, the fact that PMAS was not available for management/oversight of the VOA
development does not mean that VOA did not have appropriate oversight. OALC’s Office of
Acquisition Operations followed a rigorous process to receive the OALC approval and
management of the VOA project, with processes and deliverables similar to PMAS guidelines,
such as 6-month incremental releases, risk management assessments, associated development
and management artifacts, and monthly progress status reports. Under PMAS, customer-facing
capabilities/functionality must be delivered in 6-month increments. VOA functionality was
delivered with faster results than PMAS requires. The average period of performance per task
order was 174 days, with the average time for the first deliverable was 34 days, and the average

VA Office of Inspector General                                                                  13
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


time for the last delivery from date of award was 95 days. This clearly demonstrates that VOA
development far exceeded PMAS delivery expectations.

OALC fully documented its management oversight from 2008 through 2013 and obtained
approvals from the Office of Acquisition and Logistics (OAL), and OIT senior leadership
regarding the initiation and progress of VOA implementation through sustainment. In addition,
OALC, OAL, and OIT recently granted approval to OAO for sustainment and enhancements of
VOA in fiscal year (FY) 2013.

Allegation 2: VOA development was unnecessary.

OIG Findings: The OIG findings for Allegation 2 partially substantiated that the need for VOA
software was questionable. OIG’s findings stated that “We partially substantiated the allegation
that VOA development was unnecessary.”

OALC Response: VOA and the Electronic Contract Management System (eCMS) serve
different purposes and as such, have different functionalities. While some functions are now
duplicative, the functions were put into VOA to offset significant weaknesses in eCMS. In
general, the eCMS is a contract management system whose primary function is to generate
federal contract documents based on requirements documents added by the customer. The VOA
is a requirements submission, refinement, tracking, and reporting system that provides essential
collaboration capabilities to the customer and the contracting team to help track and refine
requirements documents prior to them being ready for submission to eCMS. While some basic
capabilities are common as noted above, VOA was developed as a complementary system to the
eCMS, to help develop and finalize customer requirements and track items in the early stages.
The VOA serves as a "feeder" system to eCMS. Further, the VOA fulfills many of the pre-
solicitation and reporting needs eCMS was not designed to meet.

OALC provided a significant amount of data during the investigation regarding the individual
functionality of VOA, in comparison to CMS. While the report concluded that the systems were
functionally similar, the report does not provide specific capability mapping of the two systems
to identify quantifiable duplication. Without providing specifics as to the actual duplication of
functionality at the time of VOA development, it is unclear how the report could substantiate that
the need for VOA was unnecessary.

Instead of providing a comparison of functionality, the report showed four high-level examples
of similar capabilities. While OALC agrees that these examples indicate similar system
capabilities, they do not support the allegation that VOA development was unnecessary. In fact,
three of them speak to the fact the eCMS does not provide adequate functionality. Of more
concern as to the assessment VOA duplicated eCMS functionality is the fact that one example
states VOA has functionality which eCMS is currently seeking to duplicate: “Officials at eCMS
are currently working to enhance the eCMS Planning Module function to include some of these
features." Another example in the report implies that eCMS will be modified to create
functionality currently in the VOA: "However…eCMS currently does not provide all the
functionality” required by the TAC.’’




VA Office of Inspector General                                                                  14
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


The report also fails to address the major functionality gaps in eCMS that existed at the time
VOA was approved, funded, and, developed.

Office of Acquisition, Logistics, and Construction

August 2013




VA Office of Inspector General                                                                  15
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


Appendix E          Office of Inspector               General        Contact       and      Staff
                    Acknowledgments

                      OIG Contact 	               For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                      Acknowledgments	            Mario M. Carbone, Director
                                                  Jehri Lawson
                                                  Theresa Lospinoso
                                                  Kristin Nichols




VA Office of Inspector General                                                                  16
                      Review of Alleged System Duplication in VA’s VOA Software Development Project


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  17
